No. 20-6490
IN THE SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Applicant,
v.
OAKLAND COUNTY CIRCUIT COURT JUDGE, Respondent.

EMERGENCY APPLICATION FOR A STAY OF EXECUTION PENDING THE
DISPOSITION OF THE PETITION FOR WRIT OF CERTIORARI

APPENDIX

Appendix A
l

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353802

LC No.

2017-854298-PP

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The complaint for superintending control is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201(B)(3) and 7.216(A)(10). Plaintiff has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee and the $25 e-filing system fee.
Dismissal is without prejudice to whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that plaintiffs complaint is frivolous and vexatious. Plaintiff Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Cleric of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).
i

1
/fr-v'o rut'M

'fit

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

JUL 14 202D
Date

Appendix B

Court of Appeals, State of Michigan
ORDER

In re Montano
Docket No.

353957

LCNo.

2012-802216-DO

Christopher M. Murray, Chief Judge, acting under MCR 7.201(B)(3), orders:
The complaint for superintending control is DISMISSED for failure to pursue the case in
conformity with the rules. MCR 7.201(B)(3) and 7.216(A)(10). Plaintiff has failed to correct the defect
in this filing by paying to the Clerk of the Court the $375 entry fee and the $25 e-filing system fee.
Dismissal is without prejudice to whatever other relief may be available consistent with the Court Rules.
On its own motion pursuant to MCR 7.216(C)(1), the Court ASSESSES SANCTIONS on
the basis that plaintiffs complaint is frivolous and vexatious. Plaintiff Mario Allan Montano is ordered
to pay sanctions in the amount of $750.00 to the Clerk of this Court within 28 days of the Clerk's
certification of this order. The Clerk of the Court is ordered to return without accepting any further filings
by, or on behalf of, Mario Allan Montano in any non-criminal matter until he has made the payment
required by this order. MCR 7.216(A)(7).
)

i

/

..

n
lp

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

AUG 1 1 20211
Date

Appendix C

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
Chief Justice

David F. Viviano,
Chief Justice Pro Tem

161475
161670

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

In re MONTANO.
MARIO ALLAN MONTANO,
Plaintiff-Appellant,
SC: 161475, 161670
COA: 353802
OAKLAND COUNTY CIRCUIT COURT
JUDGE,
Defendant-Appellee.

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of plaintiff-appellant to pay
the outstanding fees. The clerk of the Court shall not to accept further filings from the
plaintiff-appellant in any civil matter until the sanctions ordered by this Court in No.
161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals ($1,000.00)
are paid in full.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5,2020
Clerk

Appendix D

Order

Michigan Supreme Court
Lansing, Michigan

October 5, 2020

Bridget M. McCormack,
ChiefJustice

David F. Viviano,
Chief Justice Pro Tem

161662
161848

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

IVY ALICE WIMMER,
Plaintiff-Appellee,

Justices

SC: 161466, 161645
COA: 353685
Oakland CC: 2012-802216-DO
MARIO ALLAN MONTANO,
Defendant-Appellant.

On order of the Chief Justice, the interlocutory application and the application for
leave to appeal are administratively dismissed for the failure of defendant-appellant to
pay the outstanding fees. The clerk of the Court shall not to accept further filings from
the defendant-appellant in any civil matter until the sanctions ordered by this Court in
No. 161152, IW v MM ($500.00) and No. 161299, Montano v Court of Appeals
($1,000.00) are paid in full.

ft

m
3

1, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
October 5, 2020
Clerk

Appendix £

MICHIGAN COURT OF APPEALS
IN RE MONTANO

COA. 353802
Hon. Christopher M. Murray
6th Judicial Circuit (Oakland County)
Trial Ct. No: 2017-854298-PP
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Plaintiff, MARIO ALLAN MONTANO for his Motion to Stay the
Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari states as
follows:
1. This Court issued an order dismissing this case (“Dismiss Order”) on July 14, 2020
(Exhibit 1).
2. The Plaintiff appealed the Dismiss Order to the Michigan Supreme Court (“MSC”)
initiating the case of In Re Montano1 (“MSC Case”) on July 19, 2020.
3. The MSC issued an order dismissing the MSC Case (“MSC Dismissal”) on October 5,

td
O

w

2020 (Exhibit 2).

<

CD
4. The Plaintiff appealed the MSC Dismissal by filing a Petition for Writ of Certiorari with

o

the Supreme Court of the United States (“SCOTUS”) on November 11, 2020.
5. The case of Montano v. Oakland County Circuit Court Judge, No. 20-6490 was docketed

O

c

>

with SCOTUS on December 1, 2020.2
6. SCOTUS has discretionary review jurisdiction over the MSC Dismissal and this Court’s
Dismiss Order.

to
to
o
to

o
' vo

1 In Re Montano, 161475, 161670 (Mich. October 5, 2020).
2 https://www.supremecourt.aov/search.aspx?filename=/docket/docketfiles/html/public/20-6490.html

U)
'0»

oo
T3

£

7. This Court’s Dismiss Order will not achieve final disposition until SCOTUS disposes of
Case No. 20-6490.
8. This Court’s Dismiss Order sanctions the Plaintiff $750 and also prevents him from filing
in all non-criminal cases until he has paid $750.
9. The Plaintiff has not paid the sanctions because he cannot afford them.
10. This Court has jurisdiction to issue a stay of execution of its Dismiss order pending the
disposition of the Petition for Writ of Certiorari pursuant to MCR 7.209(H)(2).
11. This Court’s Dismiss Order is not final, and it is unjust for the Plaintiff to be deprived his
right to litigate in the COA based on a non-final order.
12. The Plaintiff requests this Court to enter an order to stay the execution of the Dismiss Order
pending disposition of the Petition for Writ of Certiorari.
WHEREFORE the Plaintiff, MARIO ALLAN MONTANO hereby requests this
Honorable Court to:
A. Enter an order granting this motion.
B. Enter an order to stay the execution of the Dismiss Order pending disposition of the Petition

5d
W

O

S

for Writ of Certiorari.
C. Grant the Plaintiff any other relief this Court deems appropriate.

<
frj

G
CT
'C

I declare that the statements above are true to the best of my information, knowledge and

so
o
>

belief

to

a\
to

Dated: December 6. 2020
Mario Allan Montano
Plaintiff
2

o
K>
o
'O
Oh
Oh

oj

oo
T!

£

.

Appendix F

MICHIGAN COURT OF APPEALS
IN RE MONTANO

COA. 353957
Hon. Christopher M. Murray
6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Plaintiff, MARIO ALLAN MONTANO for his Motion to Stay the
Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari states as
follows:
1. This Court issued an order dismissing this case (“Dismiss Order”) on August 11, 2020
(Exhibit 1).
2. The Plaintiff appealed the Dismiss Order to the Michigan Supreme Court (“MSC”)
initiating the case of In Re Montano1 (“MSC Case”) on August 11, 2020.
*3_j

3. The MSC issued an order dismissing the MSC Case (“MSC Dismissal”) on October 5,
2020 (Exhibit 2).

cn

O
<

ffl
4. The Plaintiff appealed the MSC Dismissal by filing a Petition for Writ of Certiorari with

o
CX1

the Supreme Court of the United States (“SCOTUS”) on November 11,2020.
5. The case of Montano v. Oakland County Circuit Court Judge, No. 20-6490 was docketed

v:

2
O
o
>

with SCOTUS on December 1,2020.2
6. SCOTUS has discretionary review jurisdiction over the MSC Dismissal and this Court’s
Dismiss Order.

to

o\
to

o
to
o

o
1 In Re Montano, 161622, 161848 (Mich. October 5, 2020).
2 https://www.supremecourt.aov/search.aspx?filename=/docket/docketfiles/html/public/20-6490.html

to
Tf

S

7. This Court’s Dismiss Order will not achieve final disposition until SCOTUS disposes of
Case No. 20-6490.
8. This Court’s Dismiss Order sanctions the Plaintiff $750 and also prevents him from filing
in all non-criminal cases until he has paid $750.
9. The Plaintiff has not paid the sanctions because he cannot afford them.
10. This Court has jurisdiction to issue a stay of execution of its Dismiss order pending the
disposition of the Petition for Writ of Certiorari pursuant to MCR 7.209(H)(2).
11. This Court’s Dismiss Order is not final, and it is unjust for the Plaintiff to be deprived his
right to litigate in the COA based on a non-final order.
12. The Plaintiff requests this Court to enter an order to stay the execution of the Dismiss Order
pending disposition of the Petition for Writ of Certiorari.
WHEREFORE the Plaintiff, MARIO ALLAN MONTANO hereby requests this
Honorable Court to:
A. Enter an order granting this motion.
B. Enter an order to stay the execution of the Dismiss Order pending disposition of the Petition
for Writ of Certiorari.
C. Grant the Plaintiff any other relief this Court deems appropriate.

pc

fTj

o
w
<
W

o

cr
I declare that the statements above are true to the best of my information, knowledge and
belief.

o
o
>

/$/Mario frWan Wonfano

Dated: December 6. 2020

Mario Allan Montano
Plaintiff

to
os
to

o
K>
O

o
2

to
OS

£

Appendix G

almontano29582@gmaiLcom
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 8:25 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Court of Appeals Case No. 353802

The Michigan Court of Appeals has rejected your document filed into Case No. 353802, IN RE MONTANO.
Filing Details
Rejection Reason: The filing was rejected.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix H

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 8:25 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Court of Appeals Case No. 353957

The Michigan Court of Appeals has rejected your document filed into Case No. 353957, IN RE MONTANO.
Filing Details
Rejection Reason: The filing was rejected.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
***** This e-mail was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected. *****
MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix I

MICHIGAN SUPREME COURT
IN RE MONTANO

W

n

MSC: 161475, 161670
Hon. Bridget M. McCormack

M

<

W

o

COA. 353802
Hon. Christopher M. Murray

cr

'C

GO

6th Judicial Circuit (Oakland County)
Trial Ct. No: 2017-854298-PP
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI

O
to
-o
to
■

o

to
o

o
Ol

NOW COMES the Plaintiff-Appellant, MARIO ALLAN MONTANO for his Motion to
Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. MCR 7.305(1) state that the provisions in MCR 7.209 regarding a stay of execution apply
to this Court.
2. MCR 7.209(D) as applied to this Court give this Court jurisdiction to stay the orders of the
Michigan Court of Appeals (“COA”) on terms it deems just.
3. MCR 7.209(H)(2) as applied to this Court give this Court jurisdiction to stay any judgment
or order of a lower court and its own orders on terms it deems just.
4. This Court issued an order in MSC 161121 granting the Plaintiff-Appellant (“Plaintiff’) a
fee waiver on March 18, 2020.
5. This Court determined the Plaintiff was too poor to afford motion fees of $75 or more on
March 18, 2020.
6. The Plaintiffs financial situation has declined since March 18, 2020 and he still can’t
afford court fees of $75 or higher.

o\
to
>

£

7. Mario Allan Montano filed a Complaint for Superintending Control against the Honorable
Kameshia D. Gant with the Michigan Court of Appeals (“COA”) on June 11,2020.
8. The case of In Re Montano1 (“COA 353802”) was initiated on June 11, 2020.
9. The Defendant in COA 353802 has not filed a single document in the case which has been
uncontested since the day it was initiated.

trj

O
M
»—I

<3

ffl

o

cr
v;

£

GO

O
10. Chief Judge Murray issued an order dismissing COA 353802 (“COA Dismissal”) on July

NJ

--a

14, 2020 (Exhibit 1).
11. The COA Dismissal ordered the Plaintiff to pay the Clerk $750 in sanctions.

to
o
to

12. The COA Dismissal ordered the Clerk to reject all Plaintiff filings in non-criminal cases

o

o
Lfx

as

o

till the sanctions were paid.
13. This Court affirmed that the Plaintiff is too poor to pay the sanctions.
14. The Plaintiff has not paid the sanctions in the COA Dismissal because he cannot afford
them.
15. The Plaintiff has been deprived of any ability to litigate any non-criminal issue in the COA
since July 14, 2020 because he is too poor to pay sanctions ordered in an uncontested case.
16. The Plaintiff appealed the COA Dismissal initiating the case of In Re Montano2 (“this
case”) with the Michigan Supreme Court (“MSC”) on July 19, 2020.
17. This case has been uncontested since the day it was initiated.
18. This Court issued an order dismissing (“MSC Dismissal”) this case on October 5, 2020
(Exhibit 2).

1 In Re Montano, 353802 (Mich. Ct. App. July 14, 2020).
2 In Re Montano, 161475, 161670 (Mich. October 5, 2020).
2

to
;>

19. The MSC Dismissal states that the Clerk must reject all Plaintiff-Appellant (“Plaintiff’)
filings in all non-criminal matters till sanctions totaling $1,500 issued in other cases are

gn

paid.

tn

W.
<

20. The MSC Dismissal states that the Plaintiff must pay all court fees up front and no longer

d
cr

have his fees conditionally waived upon filing of a Motion to Waive Fees pursuant to MCR

GO

£

O

7.319(C).
21. This Court has affirmed that the Plaintiff cannot afford to pay the sanctions or the Court
Fees on March 18, 2020.
22. The Plaintiff has not paid the sanctions and cannot afford to pay court fees.
23. The Plaintiff has been deprived of any ability to litigate any issue in the MSC since
October 5, 2020 because he is too poor to pay sanctions and Court Fees as ordered by this
Court.
24. The Plaintiff appealed the MSC Dismissal and by extension the COA Dismissal by filing
a Petition for Writ of Certiorari (“Petition”) with the Supreme Court of the United States
(“SCOTUS”) on November 11, 2020.
25. The case of Montano v. Oakland County Circuit Court Judge, No. 20-6490 was docketed
with SCOTUS on December 1, 2020.3
26. SCOTUS has discretionary review jurisdiction over the MSC Dismissal and the COA
Dismissal.
27. It is a fact that the MSC Dismiss Order and the COA Dismiss Order have not achieved
final disposition and will not do so until SCOTUS has disposed of the Petition.

3 httDs://www.supremecourt.qov/search.asDX?filename=/docket/docketfiles/html/public/20-6490.html

3

to
o
to
o
o
oi

as
o
to

£

28. The Plaintiff has been deprived of all abilities to defend or litigate any matter in this Court
based on the MSC Dismissal which is not yet final.
29. Justice and MCR 7.209(H)(2) support the entry of an order by this Court to stay the
execution of the MSC Dismissal pending the Disposition of the Petition with SCOTUS.
30. The Plaintiff filed a motion to stay the execution of the COA Dismissal with the COA on

So

ffl
H—i
<
tfl

u

cr
00

n

December 6, 2020 (Exhibit 3).

to

31. The motion seeks a stay of the COA Dismissal pending the disposition of the Petition with
SCOTUS.
32. The COA rejected the filing of the Plaintiffs motion on December 7, 2020 (Exhibit 4).

to
o
to
o
o
ON

33. The COA has denied the Plaintiffs Petition for a stay of the COA Dismissal based on its
action.

o
to
>.

s

34. This Court has jurisdiction and is the Court of last resort in the state of Michigan that can
issue a stay on the COA Dismissal.
35. The Plaintiff is deprived of any ability to litigate in any COA non-criminal case based on
the COA Dismissal which not yet final.
36. Justice and MCR 7.209(H)(2) support the entry of an order by this Court to stay the
execution of the COA Dismissal pending the Disposition of the Petition with SCOTUS.

4

WHEREFORE the Plaintiff-Appellant, MARIO ALLAN MONTANO hereby requests
this Honorable Court to:

Sn
W
k—(

<

M

A. Enter an order granting this motion.

O
B. Enter an order to stay the execution of the MSC Dismissal pending the Disposition of the

cr

s

Petition for Writ of Certiorari with SCOTUS.

00

C. Enter an order to stay the execution of the COA Dismissal pending the Disposition of the

n
to

-o

Petition for Writ of Certiorari with SCOTUS.

to

D. Grant the Plaintiff-Appellant any other relief this Court deems appropriate.

o
to
o
o

/ declare that the statements above are true to the best of my information, knowledge and

Ol

ON

o

to
>
%

belief.

Dated: December 7. 2020
Mario Allan Montano
Plaintiff-Appellant

5

Appendix J

MICHIGAN SUPREME COURT
IN RE MONTANO

MSC: 161622, 161848
Hon. Bridget M. McCormack

s

O
ffl
W

COA. 353957
Hon. Christopher M. Murray
6th Judicial Circuit (Oakland County)
Trial Ct. No: 2012-802216-DO
Hon. Kameshia D. Gant

MOTION TO STAY THE EXECUTION OF THIS COURT’S
ORDER PENDING DISPOSITION OF A PETITION FOR WRIT
OF CERTIORARI
NOW COMES the Plaintiff-Appellant, MARIO ALLAN MONTANO for his Motion to
Stay the Execution of this Court’s Order Pending Disposition of a Petition for Writ of Certiorari
states as follows:
1. MCR 7.305(1) state that the provisions in MCR 7.209 regarding a stay of execution apply
to this Court.
2. MCR 7.209(D) as applied to this Court give this Court jurisdiction to stay the orders of the
Michigan Court of Appeals (“COA”) on terms it deems just.
3. MCR 7.209(H)(2) as applied to this Court give this Court jurisdiction to stay any judgment
or order of a lower court and its own orders on terms it deems just.
4. This Court issued an order in MSC 161121 granting the Plaintiff-Appellant (“Plaintiff’) a
fee waiver on March 18, 2020.
5. This Court determined the Plaintiff was too poor to afford motion fees of $75 or more on
March 18, 2020.
6. The Plaintiffs financial situation has declined since March 18, 2020 and he still can’t
afford court fees of $75 or higher.

d

cr

'C

s

oo
O
to
to
o
to

o

On
Ol

ON
>

s

7. Mario Allan Montano filed a Complaint for Superintending Control against the Honorable
Kameshia D. Gant with the Michigan Court of Appeals (“COA”) on June 25, 2020.

Sn
cn
*—H

8. The case of In Re Montano1 (“COA 353957”) was initiated on June 25, 2020.
9. The Defendant in COA 353957 has not filed a single document in the case which has been

<

W

G
cr

s

uncontested since the day it was initiated.

00

O
10. Chief Judge Murray issued an order dismissing COA 353957 (“COA Dismissal”) on

to

-o

August 11, 2020 (Exhibit 1).

to

11. The COA Dismissal ordered the Plaintiff to pay the Clerk $750 in sanctions.

o
to
o

12. The COA Dismissal ordered the Clerk to reject all Plaintiff filings in non-criminal cases
till the sanctions were paid.

as

13. This Court affirmed that the Plaintiff is too poor to pay the sanctions.
14. The Plaintiff has not paid the sanctions in the COA Dismissal because he cannot afford
them.
15. The Plaintiff has been deprived of any ability to litigate any non-criminal issue in the COA
since August 11, 2020 because he is too poor to pay sanctions ordered in an uncontested
case.
16. The Plaintiff appealed the COA Dismissal initiating the case of In Re Montano2 (“this
case”) with the Michigan Supreme Court (“MSC”) on August 11, 2020.
17. This case has been uncontested since the day it was initiated.
18. This Court issued an order dismissing (“MSC Dismissal”) this case on October 5, 2020
(Exhibit 2).

1 In Re Montano, 353957 (Mich. Ct. App. August 11, 2020).
2 In Re Montano, 161622, 161848 (Mich. October 5, 2020).

2

>
%

19. The MSC Dismissal states that the Clerk must reject all Plaintiff-Appellant (“Plaintiff’)
filings in all non-criminal matters till sanctions totaling $1,500 issued in other cases are

£n
ffl
M
<

w

paid.

o

20. This Court has affirmed that the Plaintiff cannot afford to pay the sanctions and the Plaintiff

cr

£

has not paid them.

O
21. The Plaintiff has not paid the sanctions and cannot afford to pay court fees.
22. The Plaintiff has been deprived of any ability to litigate any non-criminal matter in the
MSC since October 5, 2020 because he is too poor to pay sanctions ordered by this Court.

to
'-J

to

o
to
o

23. The Plaintiff appealed the MSC Dismissal and by extension the COA Dismissal by filing
ON

a Petition for Writ of Certiorari (“Petition”) with the Supreme Court of the United States
ON

>

(“SCOTUS”) on November 11, 2020.

£

24. The case of Montano v. Oakland County Circuit Court Judge, No. 20-6490 was docketed
with SCOTUS on December 1, 2020.3
25. SCOTUS has discretionary review jurisdiction over the MSC Dismissal and the COA
Dismissal.
26. It is a fact that the MSC Dismissal and the COA Dismissal have not achieved final
disposition and will not do so until SCOTUS has disposed of the Petition.
27. The Plaintiff has been deprived of all abilities to defend or litigate any non-criminal matter
in this Court based on the MSC Dismissal which is not yet final.
28. Justice and MCR 7.209(H)(2) support the entry of an order by this Court to stay the
execution of the MSC Dismissal pending the Disposition of the Petition with SCOTUS.

3 https://www.supremecourt.qov/search.aspx?fiiename=/docket/docketfiles/html/public/20-6490-html
3

29. The Plaintiff filed a motion to stay the execution of the COA Dismissal with the COA on

£

o

December 6, 2020 (Exhibit 3).
30. The motion seeks a stay of the COA Dismissal pending the disposition of the Petition with

<

o

cr

SCOTUS.

V!

31. The COA rejected the filing of the Plaintiffs motion on December 7, 2020 (Exhibit 4).
32. The COA has denied the Plaintiffs Petition for a stay of the COA Dismissal based on its

00

n
bo

~-4

action.
33. This Court has jurisdiction and is the Court of last resort in the state of Michigan that can

to
o
to
o

issue a stay on the COA Dismissal.
ON

34. The Plaintiff is deprived of any ability to litigate in any COA non-criminal case based on

L/l

ON

the COA Dismissal which is not yet final.
35. Justice and MCR 7.209(H)(2) support the entry of an order by this Court to stay the
execution of the COA Dismissal pending the Disposition of the Petition with SCOTUS.

4

>

s

WHEREFORE the Plaintiff-Appellant, MARIO ALLAN MONTANO hereby requests

S

o

this Honorable Court to:
A. Enter an order granting this motion.

W

d
B. Enter an order to stay the execution of the MSC Dismissal pending the Disposition of the
Petition for Writ of Certiorari with SCOTUS.

cr

2
n

or)

C. Enter an order to stay the execution of the COA Dismissal pending the Disposition of the
Petition for Writ of Certiorari with SCOTUS.
D. Grant the Plaintiff-Appellant any other relief this Court deems appropriate.

to
to
o
to

o

I declare that the statements above are true to the best of my information, knowledge and
L/l

0\

belief

>

2
Dated: December 7, 2020
Mario Allan Montano
Plaintiff-Appellant

5

Appendix K

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 11:27 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Supreme Court Case No. 161475

The Michigan Supreme Court has rejected your document filed into Case No. 161475, IN RE MONTANO.
Filing Details
Rejection Reason: The filing was rejected for the reason previously explained.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e_maj| was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix L

almontano29582@gmail.com
From:
Sent:
To:
Subject:

info@truefiling.com
Monday, December 7, 2020 11:26 AM
almontano29582@gmail.com
MiFILE: Filing Rejected Notification - Ml Supreme Court Case No. 161622

The Michigan Supreme Court has rejected your document filed into Case No. 161622, IN RE MONTANO.
Filing Details
Rejection Reason: The filing was rejected for the reason previously explained.
Document Type: Motion - Regular
Filing Name: Motion for a Stay Pending SCOTUS Disposition
Filed By: Montano, Mario (Pro Se)
From: Mario Montano
You should contact the Court if you need further explanation.
*****This e_maj| was sent from an unattended e-mail mailbox. Replies to this e-mail will be rejected.

*****

MiFILE is the Michigan judiciary's electronic-filing system for filing and serving documents online. This system is available 24 hours a day, 7 days a week.
Home page: https://mifile.courts.michigan.gov/
CONFIDENTIALITY NOTICE: This message and any associated documents have been sent via MiFILE and may contain confidential information. The information is intended for
individuals or legally defined interested persons associated with the case to which this message applies. Any individual not associated with the case is prohibited from
disseminating, distributing, or copying this message or any associated documents, downloading the associated documents, or taking any action on the contents of this message
or any associated documents. If you have received this communication in error, please delete the message immediately. Thank you.

1

Appendix IY1

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results - 353802
Appellate Docket Sheet
COA Case Number: 353802
MSC Case Number: 161670
IN RE MONTANO

1

MONTANO MARIO ALLAN

PL

PRO

2

OAKLAND COUNTY CIRCUIT COURT JUDGE

DF

RET

COA Status: Case Concluded; File Archived

MSC Status: Closed

Proof of Service Date: 06/11/2020
Answer Due: 07/02/2020
Fee Code: EPAY
Filed By Pro Per
05/11/2020

2 Source of Case
From: OAKLAND CIRCUIT COURT
Case Number: 2017-854298-PP
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Superintending Control

Proof of Service Date: 06/11/2020
Filed By Pro Per
For Party: 1 MONTANO MARIO ALLAN PL
Answer Due: 06/18/2020

06/16/2020

6 Submitted on Administrative Motion Docket
Event: 3 Waive Fees
District: T

HQ

|£jg|

View document in PDF format
Event: 3 Waive Fees
Panel: ELG
Comments: $400 due 7/7

06/16/2020

8 Other
Date: 06/16/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments; notice of filing application with Michigan Supreme Court

1

(69425) GANT KAMESHIA D

06/21/2020

15 Motion: Reconsideration of Order
Proof of Service Date: 06/21/2020
Filed By Pro Per
For Party: 1 MONTANO MARIO ALLAN PL
Answer Due: 07/05/2020
Comments: of denial of motion to waive fees-received on 6/21/20 on weekend-docketed next business day

06/23/2020

17 Submitted on Reconsideration Docket
Event: 15 Reconsideration of Order
District: T

06/23/2020

18 Order: Reconsideration - Deny - Appeal Remains Open
View document in PDF format
Event: 15 Reconsideration of Order
Panel: ELG
Comments: fees must be paid by 7/7

2

07/14/2020

26 Submitted on Administrative Motion Docket
Event: 1 Complaint for Writ of Superintending Control
District: T

(07/14/2020) 57 Orderi Dismissal - Administrative - Filing Defect?
View document in PDF format
Event: 1 Complaint for Writ of Superintending Control
Panel: CMM
Amount: $750.00
Comments: DISMISSED for failure to pay fees- SANCTIONS ASSESSED- sanctions due 8/11

07/14/2020
07/20/2020

28 Resent Email Notification
29 Other
Date: 07/19/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: notice of filing app in Sup Court

3

Appendix N

Home

Cases, Opinions & Orders

Case Search
Case Docket Number Search Results - 353957
Appellate Docket Sheet
COA Case Number: 353957
MSC Case Number: 161848
IN RE MONTANO

1

MONTANO MARIO ALLAN

PL

PRO

2

OAKLAND CIRCUIT COURT JUDGE

DF

RET
RET

COA Status: Case Concluded; File Archived
06/26/2020

MSC Status: Closed

1 Complaint for Writ of Superintending Control
Proof of Service Date: 06/25/2020
Fee Code: I
Filed By Pro Per

11/13/2019

2 Order Appealed From
From: OAKLAND CIRCUIT COURT
Case Number: 2012-802216-DO
Trial Court Judge: 69425 GANT KAMESHIA D
Nature of Case:
Superintending Control

{06/25/2020) (3 Motion: Waive Fees;
Proof of Service Date: 06/25/2020
Filed By Pro Per
For Party: 1 MONTANO MARIO ALLAN PL
Fee Code: I
Answer Due: 07/02/2020
07/14/2020

5 Submitted on Administrative Motion Docket
Event: 3 Waive Fees
District: T

07/14/2020

ilrderi V§iye Feesr pei^
View document in PDF format
Event: 3 Waive Fees
Panel: ELG
Comments: $400 due 8/4

07/15/2020

7 Other
Date: 07/15/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notirce of Filing Application to Michigan Supreme Court

1

(69425) GANT KAMESHIA D

07/27/2020

12 Motion: Reconsideration of Order
Proof of Service Date: 07/27/2020
Filed By Pro Per
For Party: 1 MONTANO MARIO ALLAN PL
Fee Code: I
Answer Due: 08/10/2020

07/27/2020

15 Proof of Service - Generic
Date: 07/27/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: of motion for reconsideration

07/28/2020

16 Submitted on Reconsideration Docket
Event: 12 Reconsideration of Order
District: T

07/28/2020

17 Order: Reconsideration - Deny - Appeal Remains Open
View document in PDF format
Event: 12 Reconsideration of Order
Panel: ELG
Comments: costs due by 8/4

08/11/2020

23 Submitted on Administrative Motion Docket

2

Event: 1 Complaint for Writ of Superintending Control
District: T

(08/11/2020, (24 Order: Dismissal - Administrative - Filing Defect'
View document in PDF format
Event: 1 Complaint for Writ of Superintending Control
Panel: CMM
Amount: $750.00
Comments: : DISMISSED for failure to pay fees- SANCTIONS ASSESSED- sanctions due 9/8

3

Appendix O

Home Cases, Opinions & Orders

Case Search
Case Docket Number Search Results -161475
Appellate Docket Sheet
COA Case Number: 353802
MSC Case Number: 161670
IN RE MONTANO

l

MONTANO MARIO ALLAN

PL

PRO

2

OAKLAND COUNTY CIRCUIT COURT JUDGE

DF

RET

COA Status: Case Concluded; File Archived

06/16/2020

MSC Status: Closed

9 SCt: Inter Application
Supreme Court No: 161475
Answer Due: 07/14/2020
For Party: 1
Filed By Pro Per

1

(69425) GANT KAMESHIA D

Comments: Docketed without fees to determine PTAT's entitlement to fee waiver. If MSC denies fee waiver, PTAT will
be invoiced for application and motion fees ($600.00)

Party: 1
Filed by Pro Per
06/16/2020

11 SCt Motion: Immediate Consideration
Party: 1
Filed by Pro Per

06/16/2020

12 SCt Motion: Consolidate
Party: 1
Filed by Pro Per

06/17/2020

13 SCt Case Caption
Proof Of Service Date: 06/17/2020

06/17/2020

14 SCt Correspondence Received
Proof Of Service Date: 06/17/2020
Filed By Pro Per
Comments: Correspondence requesting to withdraw motion for immediate consideration of motion to waive fees

06/24/2020

19 SCt Motion: Dismiss
Party: 1
Filed by Pro Per
Comments: Docketed without fees, if MSC denies fee waiver (event 10), PTAT will be invoiced for $75.00 motion fee

06/25/2020

20 SCt: Miscellaneous Filing
Filing Date: 06/25/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Withdrawal of Application

06/29/2020

21 SCt: Miscellaneous Filing
Filing Date: 06/29/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notice of withdrawing motion to dismiss

07/08/2020

22 SCt: Miscellaneous Filing
Filing Date: 07/08/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Letter re rescinding intended dismissal of case.

07/09/2020

23 SCt: Miscellaneous Filing

2

Filing Date: 07/09/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notice of Filing Withdrawal.

07/20/2020

31 SCt: Application for Leave to SCt
Supreme Court No: 161670
Answer Due: 08/17/2020
Fee: Invoiced
For Party: 1
Filed By Pro Per
{CpnifflinlsJiflg fffiemporarily wanred to'determifie AT’s eligibillty.'Wiirbe'lnvoiired for allfeeslfnoteligible.
Interlocutory application in MSC No. 161475.

07/20/2020

32 SCt Motion: Stay
Party: 1
Filed by Pro Per
Comments: Fee temporarily waived pending decision on motion to waive fees

07/27/2020

33 SCt Motion: Dismiss
Party: 1
Filed by Pro Per
Comments: 161475 - Fee temporarily waived pending decision to waive fees

07/27/2020

34 SCt: Miscellaneous Filing
Filing Date: 07/27/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service

07/28/2020

35 SCt: Miscellaneous Filing
Filing Date: 07/28/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: "Notice of Ex Parte Order for Entry Pursuant to MCR 7.305(1) and MCR 7.209(1)"; order included

08/10/2020

36 SCt Motion: Miscellaneous
Party: 1
Filed by Pro Per
Comments: Motion to amend app and interlocutory app; amended app included; fee temporarily waived pending
decision on motion to waive fees

08/10/2020

37 SCt: Miscellaneous Filing
Filing Date: 08/10/2020

3

For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service; see event 37
08/10/2020

38 SCt Motion: Stay
Party: 2
Filed by Pro Per
Comments: Motion for immediate stay order; fee temporarily waived pending decision on motion to waive fees

08/12/2020

39 SCt Motion: Immediate Consideration
Party: 1
Filed by Pro Per
Comments: Motion for immediate consideration of motion for stay; fee temporarily waived pending decision on motion
to waive fees

08/12/2020

40 SCt: Miscellaneous Filing
Filing Date: 08/12/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service; see event 39

09/16/2020

41 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notices - withdraw filings

09/16/2020

42 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service of notices - 161670

10/05/2020

43 SCt Order: Close/Fail Pay Fees
View document in PDF format
Comments: MSC Nos. 161475 & 161670 are administratively closed for failure to pay fees. Clerk shall not accept filings
from AT in any civil matter until sanctions ordered in Nos. 161152 & 161299 are fully paid.

10/26/2020

44 SCt: Miscellaneous Filing
Filing Date: 10/26/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notice of filing stay of execution with SCOTUS

12/07/2020

45 SCt Correspondence Received
Proof Of Service Date: 12/07/2020
Comments: SCOTUS notice of petition for writ of cert being filed (SCOTUS No. 20-6490).

12/17/2020

48 File Closed-Out
File Location: F

Case Listing Complete

4

Appendix P

Home Cases, Opinions & Orders ,

Case Search
Case Docket Number Search Results -161622
Appellate Docket Sheet
COA Case Number: 353957
MSC Case Number: 161848
IN RE MONTANO

1

MONTANO MARIO ALLAN

PL

PRO

2

OAKLAND CIRCUIT COURT JUDGE

DF

RET
RET

COA Status: Case Concluded; File Archived

07/15/2020

MSC Status: Closed

8 SCt: Inter Application
Supreme Court No: 161622
Answer Due: 08/12/2020
Fee: Invoiced

1

(69425) GANT KAMESHIA D

For Party: 1
Filed By Pro Per
Comments: Application accepted and fee temporarily waived to determine ATs e|gibiif^~fal~wai5i5
07/16/2020

9 SCt Case Caption
Proof Of Service Date: 07/16/2020

07/20/2020

10 SCt: Miscellaneous Filing
Filing Date: 07/20/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Amended application; accepted pending waiver decision

07/20/2020

11 SCt Motion: Stay
Party: 1
Filed by Pro Per
Comments: Fee temporarily waived pending decision on motion to waive fees

07/29/2020

18 SCt Correspondence Received
Proof Of Service Date: 07/29/2020
Filed By Pro Per
Comments: Correspondence re previous filing

07/29/2020

19 SCt: Miscellaneous Filing
Filing Date: 07/29/2020
For Party: 2 OAKLAND CIRCUIT COURT JUDGE DF
Filed By Pro Per
Comments: "Notice of Ex Parte Order for Entry Pursuant to MCR 7.305(1) and MCR 7.209(1); order included

07/29/2020

20 SCt Motion: Miscellaneous
Party: 1
Filed by Pro Per
Comments: Motion to serve supplemental pleading; fee temporarily waived pending decision on motion to waive fees

07/30/2020

21 SCt Motion: Miscellaneous
Party: 1
Filed by Pro Per
Comments: Fees temporarily waived pending decision on motion to waive fees; brief and correspondence included

2

08/11/2020

25 SCt Motion: Dismiss
Party: 1
Filed by Pro Per
Comments: Mtn to dismiss interlock appeal; will file a direct appeal from 8-11-2020 CoA dismissal. Fees temporarily
waived pending decision on mtn to waive fees.

08/11/2020

26 SCt: Miscellaneous Filing
Filing Date: 08/11/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service of motion to dismiss

08/12/2020

28 SCt: Application for Leave to SCt
Supreme Court No: 161848
Answer Due: 09/09/2020
Fee: Invoiced
For Party: 1
Filed By Pro Per
Com.m?.nts' "Inter'ocutory application m MSC16I622. Conditionally accepted without fee to determine'IfllBllKli
Upee waiver,}

08/12/2020

29 SCt: Miscellaneous Filing
Filing Date: 08/12/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Correspondence re desire to have interlocutory application dismissed.

08/12/2020

30 SCt Motion: Stay
Party: 1
Filed by Pro Per
Comments: Motion to stay execution of order being appealed.

08/12/2020

31 SCt Motion: Immediate Consideration
Party: 1
Filed by Attorney
Comments: Mtn for IC of mtn for stay.

08/12/2020

32 SCt: Miscellaneous Filing
Filing Date: 08/12/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proposed ex parte order to stay execution of COA sanction.

08/20/2020

33 SCt Correspondence Received
Proof Of Service Date: 08/20/2020
Filed By Pro Per

3

08/21/2020

34 SCt: Miscellaneous Filing
Filing Date: 08/21/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Proof of service of documents filed 08202020; see event 33

08/21/2020

35 SCt: Miscellaneous Filing
Filing Date: 08/21/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: "Objection to this Court's failure to issue fee waiver orders"

09/02/2020

36 SCt: Trial Court Record Received
1 files

09/16/2020

37 SCt: Miscellaneous Filing
Filing Date: 09/16/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notice - withdrawing filings

10/05/2020

38 SCt Order: Clo”se/Fail Pay Fees
View document in PDF format
Comments: MSC Nos. 161622 & 161848 are administratively closed for failure to pay fees. Clerk shall not accept filings
from AT in any civil matter until sanctions ordered in Nos. 161152 & 161299 are fully paid. Clerical correction to say
DFAT not PLAT.

10/26/2020

39 SCt: Miscellaneous Filing
Filing Date: 10/26/2020
For Party: 1 MONTANO MARIO ALLAN PL
Filed By Pro Per
Comments: Notice of filing stay of execution with SCOTUS

12/17/2020

42 File Closed-Out
File Location: F

Case Listing Complete

4

